     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

June 11, 2010

Report Number: A-04-09-00058

Ms. Alana Sullivan
Chief Compliance Officer
Erlanger Medical Center
975 East Third Street
Whitehall Building – Suite 513
Chattanooga, TN 37403

Dear Ms. Sullivan:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part B Bad Debts at Erlanger Medical
Center for the Fiscal Year Ended June 30, 2005. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7800, or contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-09-00058 in all correspondence.

                                             Sincerely,



                                             /John T. Drake, Sr. for/
                                             Peter J. Barbera
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Alana Sullivan


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





      REVIEW OF MEDICARE 

      PART B BAD DEBTS AT 

ERLANGER MEDICAL CENTER FOR THE 

       FISCAL YEAR ENDED 

          JUNE 30, 2005 




                       Daniel R. Levinson

                        Inspector General 


                           June 2010 

                         A-04-09-00058 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Medicare program and provides
Federal oversight of State Medicaid programs for every State in the nation. CMS contracts with
Medicare fiscal intermediaries and administrative contractors to, among other things, process
and pay claims submitted by Medicare providers. Fiscal intermediary and Medicare
administrative contractor responsibilities include determining reimbursement amounts,
conducting reviews and audits, and safeguarding against fraud and abuse. Fiscal intermediaries
and Medicare administrative contractors use the Medicare cost report for final settlement of
Medicare reimbursement due to or from providers.

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries share in
defraying the costs of outpatient care through various deductibles and coinsurance amounts.
This policy was adopted in 1966 when Medicare reimbursed hospitals retrospectively under
reasonable cost principles. Beginning in 2000, outpatient hospital care was reimbursed under a
prospective payment system (PPS). Under Medicare’s PPS, bad debts (defined below) are pass-
through costs and continue to be reimbursed under reasonable cost principles. Hospitals claim
reimbursement for these bad debts on their annual Medicare cost reports.

Medicare bad debts are amounts considered to be uncollectible from accounts and notes
receivable that were created or acquired in providing services for Medicare patients. The
Medicare program reimburses hospitals for bad debts associated with uncollectible Medicare
deductible and coinsurance amounts if the bad debts meet Medicare reimbursement criteria.
Federal regulations (42 CFR § 413.89(e)) provide that, to be eligible for reimbursement, the
hospital must show that: (1) the bad debts are related to Medicare covered services and derived
from unpaid deductible and coinsurance amounts, (2) reasonable collection efforts were made,
(3) the debts were actually uncollectible when claimed as worthless, and (4) sound business
judgment established there was no likelihood of recovery at any time in the future. Furthermore,
Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce their bad debts by the
amount that they recover from previously written off bad debts. Because Federal regulations
(42 CFR § 413.89(h)) reduced reimbursement for Medicare bad debts by 30 percent in fiscal
year (FY) 2005, Medicare reimbursed 70 percent of the bad debts claimed.

Erlanger Medical Center (Erlanger) is an 819-bed acute care and 50 bed long-term care hospital
located in Chattanooga, Tennessee. Erlanger includes a Level I trauma center, a teaching center,
and a tertiary care services center. On its hospital cost report for July 1, 2004, through June 30,
2005, Erlanger claimed $1,111,024 ($777,717 reimbursement) for Medicare outpatient bad debts
(bad debts).




                                                 i
OBJECTIVE

Our objective was to determine whether bad debts claimed on Erlanger’s FY 2005 hospital cost
report were allowable under Medicare regulations and were reduced by bad debt recoveries.

SUMMARY OF FINDINGS

Erlanger properly reported 57 out of 107 bad debts in our sample on its FY 2005 hospital cost
report and reduced its bad debt claim by recoveries received during FY 2005. However, the
remaining 50 bad debts in our sample were not allowable under Medicare regulations.
Specifically, Erlanger claimed 50 unallowable bad debts totaling $34,027 as follows:

   	   38 bad debts totaling $22,188 were for accounts that were still with a collection agency
        when written off and, therefore, did not meet the definition of uncollectible when claimed
        as worthless;
   	   17 bad debts (9 of which were also included in the 38 bad debts in the previous bullet)
        totaling $5,930 were for non-covered services and were not derived from unpaid
        deductible and coinsurance amounts; and
   	   4 bad debts totaling $5,909 were undocumented indigence determinations.

Erlanger generally claimed unallowable bad debts because its policies and procedures required
accounts to be written off at the time they were referred to a collection agency. Additionally, in
some cases Erlanger claimed unallowable bad debts because its patient financial system did not
recognize and remove non-covered service charges from patient accounts before transferring the
balances to bad debt. Furthermore, Erlanger was unable to locate documentation supporting
indigence determinations.

Based on our statistical sample results, we estimated that Erlanger claimed $402,352 for bad
debts that were not reimbursable under Medicare regulations. Of this amount, $353,002 related
to bad debts that were with a collection agency. A CMS memorandum dated May 2, 2008,
entitled Clarification of Medicare Bad Debt Policy/Bad Debt Policy Related to Accounts at a
Collection Agency, states that Medicare contractors are required to disallow Medicare bad debts
for accounts at a collection agency. This same memorandum instructed Medicare contractors not
to reopen cost reports to disallow such bad debts prior to May 2, 2008. Therefore, we are not
recommending a $353,002 reduction to the bad debt total claimed by Erlanger on its cost report
or a refund of the $247,101 in related reimbursement. The remaining balance of $49,350 was
unallowable for other reasons specifically related to Erlanger’s actions and should be adjusted on
Erlanger’s cost report.

RECOMMENDATIONS

We recommend that Erlanger:

   	 request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare bad
      debts by $49,350 and refund $34,545 in related overpayments,


                                                ii
   	 review its previously submitted FY 2008 cost report and ensure compliance with CMS’s
      bad debt policy, and

   	 ensure that cost reports submitted in the future comply with CMS’s bad debt policy.

ERLANGER MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, Erlanger agreed with our findings and recommendations
pertaining to overpayments for bad debts that were not derived from Medicare deductible and
coinsurance amounts or were related to undocumented indigence determinations. However,
Erlanger disagreed with our finding regarding patient accounts that were claimed as Medicare
bad debts while the accounts were still with a collection agency. Regarding our
recommendations that Erlanger review its previously submitted FY 2008 cost report and ensure
compliance with CMS’s bad debt policy and ensure that cost reports submitted in the future
comply with CMS’s bad debt policy, Erlanger stated that it would ensure compliance with the
laws and regulations governing Medicare bad debt policy. Erlanger’s comments (minus
attachments) are included as Appendix D.

After reviewing Erlanger’s comments, we maintain that our findings and recommendations are
valid.




                                              iii
                                                  TABLE OF CONTENTS 


                                                                                                                                      Page


INTRODUCTION..........................................................................................................................1


          BACKGROUND .................................................................................................................1 

              Medicare Fiscal Intermediaries and Administrative Contractors ............................1 

              Medicare Bad Debt Policy .......................................................................................1 

              Erlanger Medical Center ..........................................................................................2                 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2 

               Objective ..................................................................................................................2 

               Scope .......................................................................................................................2 

               Methodology ...........................................................................................................2           


FINDINGS AND RECOMMENDATIONS ................................................................................3 


          BAD DEBTS NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS .............4 


          NON-COVERED SERVICES CLAIMED..........................................................................4 


          UNDOCUMENTED INDIGENCE DETERMINATIONS .................................................5 


          CONCLUSION....................................................................................................................5 


          RECOMMENDATIONS .....................................................................................................5                  


          ERLANGER MEDICAL CENTER COMMENTS .............................................................6 


          OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................6 


APPENDIXES

          A – SAMPLING METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES FOR BAD DEBTS THAT WERE NOT
               UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS

          C – SAMPLE RESULTS AND ESTIMATES FOR UNALLOWABLE BAD DEBTS
               RELATED TO ERLANGER MEDICAL CENTER’S ACTIONS

          D – ERLANGER MEDICAL CENTER COMMENTS




                                                                    iv
                                             INTRODUCTION 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Medicare program and provides
Federal oversight of State Medicaid programs for every State in the nation.

Medicare Fiscal Intermediaries and Administrative Contractors

CMS contracts with Medicare fiscal intermediaries1 and administrative contractors to, among
other things, process and pay claims submitted by Medicare providers. Fiscal intermediary
and Medicare administrative contractor responsibilities include determining reimbursement
amounts, conducting reviews and audits, and safeguarding against fraud and abuse. Fiscal
intermediaries and Medicare administrative contractors use the Medicare cost report for final
settlement of Medicare reimbursement due to or from providers.

Medicare Bad Debt Policy

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries share
in defraying the costs of outpatient care through various deductibles and coinsurance
amounts. This policy was adopted in 1966 when Medicare reimbursed hospitals
retrospectively under reasonable cost principles. Beginning in 2000, outpatient hospital care
was reimbursed under a prospective payment system (PPS). Under Medicare’s PPS, bad
debts (defined below) are pass-through costs and continue to be reimbursed under reasonable
cost principles. Hospitals claim reimbursement for these bad debts on their annual Medicare
cost reports.

Medicare bad debts are amounts considered to be uncollectible from accounts and notes
receivable that were created or acquired in providing services for Medicare patients. The
Medicare program reimburses hospitals for bad debts associated with uncollectible Medicare
deductible and coinsurance amounts if the bad debts meet Medicare reimbursement criteria.
Federal regulations (42 CFR § 413.89(e)) provide that, to be eligible for reimbursement, the
hospital must show that: (1) the bad debts are related to Medicare covered services and
derived from unpaid deductible and coinsurance amounts, (2) reasonable collection efforts
were made, (3) the debts were actually uncollectible when claimed as worthless, and (4)
sound business judgment established there was no likelihood of recovery at any time in the
future. Furthermore, Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce
their bad debts by the amount that they recover from previously written off bad debts.
Because Federal regulations (42 CFR § 413.89(h)) reduced reimbursement for Medicare bad
debts by 30 percent in fiscal year (FY) 2005, Medicare reimbursed 70 percent of the bad debts
claimed.
1
 Effective October 1, 2005, Congress amended the Social Security Act to require that CMS contract with
Medicare administrative contractors instead of fiscal intermediaries (Part A) and carriers (Part B) by October
2011. Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173 § 911,
Social Security Act, §§ 1816 and 1842, 42 U.S.C. §§ 1395h, 1395u and 1395kk-1.


                                                        1

Erlanger Medical Center

Erlanger Medical Center (Erlanger) is an 819-bed acute care and 50 bed long-term care
hospital located in Chattanooga, Tennessee. Erlanger includes a Level I trauma center, a
teaching center and a tertiary care services center. On its hospital cost report for July 1, 2004,
through June 30, 2005, Erlanger claimed $1,111,024 ($777,717 reimbursement) for Medicare
outpatient bad debts (bad debts).2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether bad debts claimed on Erlanger’s FY 2005 hospital
cost report were allowable under Medicare regulations and were reduced by bad debt
recoveries.

Scope

Our review was limited to $1,146,752 in bad debts reported on the bad debt listing supporting
Erlanger’s FY 2005 hospital cost report.3 We reviewed a sample of 100 bad debts ranging
between $50 and $2,999 totaling $35,158 and separately reviewed all 7 bad debts valued at
$3,000 or more and totaling $27,966. We also reviewed the accuracy and completeness of
bad debt recoveries reported by Erlanger during FY 2005.

We limited our review of Erlanger’s internal controls to those controls applicable to
Erlanger’s managing and reporting of its bad debts.

We conducted our fieldwork from December 2008 through February 2009 at Erlanger in
Chattanooga, Tennessee.

Methodology

To accomplish our objective, we:

       reviewed applicable Medicare laws, regulations, and guidance;

       held discussions with CMS officials regarding Medicare bad debt program guidance;

       evaluated Erlanger policies and procedures regarding the collection of deductibles and
        coinsurance amounts;

2
 On its hospital cost report, Erlanger claimed $1,111,024 in Medicare bad debts, which equaled the $1,191,392
per its bad debt listing reduced by $80,368 in bad debt recoveries.
3
  As explained in Appendix A, our sampling frame of $1,146,752 equaled $1,191,392 minus 2,545 bad debts
totaling $55,411 that were less than $50 plus 44 bad debts totaling $10,771 that were negative adjustments.


                                                       2

   	 obtained a list of bad debts claimed in FYs 2004 and 2005;

   	 verified that Erlanger claimed no duplicate bad debts on its FY 2005 cost report;

   	 conducted a stratified sample of bad debts as noted in Appendix A;

   	 validated the population of FY 2005 bad debt write offs;

   	 reviewed the patient accounting financial records, Medicare remittance documents,
      Medicaid remittance documents, and collection activity records for the 107 bad debts
      selected in the sample;

   	 used the Office of Inspector General, Office of Audit Services (OIG/OAS) statistical
      software to estimate the number and dollar value of unallowable bad debts for
      accounts that were with a collection agency when claimed as worthless (Appendix B);

   	 used the OIG/OAS statistical software to estimate the number and dollar value of
      unallowable bad debts related to Erlanger’s actions (Appendix C);

   	 reviewed the collection agencies’ contracts and bad debt invoices for FY 2005; and

   	 reviewed financial records for bad debt recoveries to determine the accuracy and
      completeness of bad debt recovery amounts used to reduce bad debts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                        FINDINGS AND RECOMMENDATIONS

Erlanger properly reported 57 out of 107 bad debts in our sample on its FY 2005 hospital cost
report and reduced its bad debt claim by recoveries received during FY 2005. However, the
remaining 50 bad debts in our sample were not allowable under Medicare regulations.
Specifically, Erlanger claimed 50 unallowable bad debts totaling $34,027 as follows:

   	 38 bad debts totaling $22,188 were for accounts that were still with a collection
      agency when written off and, therefore, did not meet the definition of uncollectible
      when claimed as worthless;




                                               3

    	 17 bad debts totaling $5,930 were for non-covered services and were not derived from
       unpaid deductible and coinsurance amounts;4 and

    	 4 bad debts totaling $5,909 were undocumented indigence determinations.

Erlanger generally claimed unallowable bad debts because its policies and procedures
required accounts to be written off at the time they were referred to a collection agency. In
some cases Erlanger claimed unallowable bad debts because its patient financial system did
not recognize and remove non-covered service charges from patient accounts before
transferring the balances to bad debt. Furthermore, Erlanger was unable to locate
documentation supporting indigence determinations.

BAD DEBTS NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS

Federal regulations (42 CFR § 413.89(e)(3)) require that a bad debt be “actually uncollectible
when claimed as worthless.” Moreover, Federal regulations (42 CFR § 413.89(e)(4)) require
that there be “no likelihood of recovery at any time in the future.” Accordingly, a May 2,
2008, CMS Joint Signature Memorandum (JSM), entitled Clarification of Medicare Bad Debt
Policy/Bad Debt Policy Related to Accounts at a Collection Agency, states that Medicare
contractors are required to disallow Medicare bad debts for accounts at a collection agency.

The memorandum states that it has been CMS’s longstanding policy that when an account is
in collection, a provider cannot have determined the debt to be uncollectible and cannot have
established that there is no likelihood of recovery under the regulations. That is, until a
provider’s reasonable collection effort has been completed, a Medicare bad debt may not be
deemed as uncollectible. According to CMS, the collection policy supporting the regulation
applies to a provider’s entire collection effort, both in-house and by use of a collection
agency.

Contrary to these regulations, we identified 38 unallowable bad debts totaling $22,188 for
accounts that were still with a collection agency when written off. These bad debts did not
meet the definition of “uncollectible” when claimed as worthless because they could still have
been recovered in the future.

NON-COVERED SERVICES CLAIMED

Federal regulations (42 CFR § 413.89(e)(1)) state that for a bad debt to be allowable, it must
be related to covered services and derived from deductible and coinsurance amounts.
Seventeen bad debts totaling $5,930 in our sample were not derived from Medicare
deductible and coinsurance amounts.


4
  Nine of these bad debts were for accounts that were still with a collection agency when written off, that did not
meet the definition of uncollectible when claimed as worthless, and that were also included in the 38 bad debts in
the previous bullet. A portion of these bad debts was recognized in each bullet, the sum of which was limited to
the total bad debt claimed.


                                                        4

UNDOCUMENTED INDIGENCE DETERMINATIONS

The Provider Reimbursement Manual (CMS, Provider Reimbursement Manual, Pub. No. 15-
1, chapter 3, § 312) provides that a hospital may deem a bad debt to be uncollectable and
forego the collection efforts required by § 310 if the patient is determined by the hospital to
be indigent. The patient’s file should “contain documentation of the method by which
indigence was determined in addition to all backup information to substantiate the
determination.”

Four bad debts totaling $5,909 were considered uncollectable by Erlanger on the basis of
patient indigence. Consequently, Erlanger made no collection efforts on these bad debts.
However, Erlanger did not document the basis for considering these patients indigent. For
example, Erlanger did not provide remittance documents from the title XIX agency to support
the indigence determinations.

CONCLUSION

Our sample review identified 38 unallowable bad debts totaling $22,188 for accounts that
were still with a collection agency when written off. Based on our sample results, we
estimated that Erlanger claimed 1,165 such bad debts on its FY 2005 cost report, representing
$353,002 in bad debts, and received $247,101 in related reimbursement. However, the May
2, 2008, JSM, stated that Medicare contractors whose practice had been since August 1, 1987
to allow hospitals to claim as bad debts accounts at a collection agency should not reopen cost
reports to disallow bad debts that were improperly paid for this reason prior to May 2, 2008.5
Therefore, we are not recommending a $353,002 reduction to the bad debt total claimed by
Erlanger on its FY 2005 cost report or a refund of the $247,101 in related reimbursement.
(See Appendix B for details on our sample results and estimates.)

Our sample review also identified 21 bad debts totaling $11,839 that were unallowable for
other reasons specifically related to Erlanger’s actions. Based on these results, we estimated
that Erlanger claimed 338 such bad debts on its FY 2005 cost report, representing $49,350 in
bad debts, and received $34,545 in related reimbursement. (See Appendix C for details on
our sample results and estimates.)

RECOMMENDATIONS

We recommend that Erlanger:

    	 request its fiscal intermediary reopen its 2005 hospital cost report to reduce Medicare
       bad debts by $49,350 and refund $34,545 in related overpayments,




5
  In 1987 the fiscal intermediary for Tennessee allowed bad debt write-offs at the time patient accounts were sent
to a collection agency. This practice was continued until May 2, 2008.


                                                        5

   	 review its previously submitted FY 2008 cost report and ensure compliance with
      CMS’s bad debt policy, and

   	 ensure that cost reports submitted in the future comply with CMS’s bad debt policy.

ERLANGER MEDICAL CENTER COMMENTS

In written comments on our draft report, Erlanger agreed with our findings and
recommendations pertaining to overpayments for bad debts that were not derived from
Medicare deductible and coinsurance amounts or were related to undocumented indigence
determinations.

Erlanger disagreed with our finding regarding patient accounts that were claimed in
Erlanger’s FY 2005 cost report as Medicare bad debt while the accounts were still with a
collection agency. Erlanger stated that these accounts were allowable Medicare bad debt
given the “bad debt moratorium” and the Foothill Hospital v. Leavitt decision.

Regarding our recommendation that Erlanger review its previously submitted FY 2008 cost
report and ensure compliance with CMS’s bad debt policy, as well as our recommendation
that Erlanger ensure that cost reports submitted in the future comply with CMS’s bad debt
policy, Erlanger stated that it would ensure compliance with the laws and regulations
governing Medicare bad debt policy. Erlanger’s comments (minus attachments) are included
as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Erlanger’s comments, we maintain that our findings and recommendations
are valid. Although we did not make any recommendation pertaining to patient accounts that
were claimed in Erlanger’s FY 2005 cost report as Medicare bad debt while the accounts were
still with a collection agency, Erlanger’s disagreement with our finding is not merely
academic in light of Erlanger’s response to our recommendations regarding the FY 2008 cost
report and future cost reports. Erlanger appears to be drawing a distinction between “CMS’s
bad debt policy,” with which it expressly disagrees, and the “laws and regulations governing
Medicare bad debt policy,” with which it purportedly agrees.

Our finding that patient accounts claimed in Erlanger’s FY 2005 cost report as Medicare bad
debt while the accounts were still with a collection agency were unallowable was based on
Federal regulations (42 CFR §§ 413.89(e)(3) and (4)), which predated the bad debt
moratorium. CMS’s bad debt policy, expressed in its May 2, 2008, JSM, also is grounded in
these regulations. The distinction Erlanger has drawn is not valid.




                                             6

APPENDIXES 

                                                                                     Page 1 of 2

                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare Part B bad debts that were claimed on Erlanger Medical
Center’s FY 2005 hospital cost report.

SAMPLING FRAME

Erlanger Medical Center provided two Excel files supporting Part A and Part B Medicare bad
debts claimed on its 2005 cost report. One file included Part A and Part B crossover bad debts,
and the other file included Part A and Part B non-crossover bad debts. We separated the Part A
and Part B data from each file and combined the two Medicare Part B bad debt worksheets to
create a single Medicare Part B worksheet that comprised 7,210 line items. We eliminated 1,294
line items having zero effect on the Medicare Part B bad debt claimed on the cost report. The
remaining 5,916 bad debts totaling $1,191,392 represented bad debts claimed on the cost report
(excluding an offset for recoveries totaling $80,368). We sorted the bad debts in descending
order and separated the 5,916 Medicare Part B bad debts as follows:

      7 bad debts totaling $27,966 that were $3,000 or greater;

      3,320 bad debts totaling $1,118,786 that were $50 or greater but less than $3,000; and

      2,545 bad debts totaling $55,411 that were less than $50; and

      44 negative amounts for recoveries totaling ($10,771).

To avoid extreme variations in bad debts within our frame, we excluded the 2,545 bad debts
totaling $55,411 that were less than $50 and the 44 negative amounts for recoveries totaling
($10,771). We then created a new excel file containing 3,327 bad debts $50 or greater totaling
$1,146,752. This file is our sampling frame.

SAMPLE UNIT

The sample unit was a Medicare Part B bad debt.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into two strata based on
dollar value. Stratum 1 consisted of bad debts $50 or greater but less than $3,000. Stratum 2
consisted of all bad debts $3,000 or greater.

                                                      No. of Claims in
                             Stratum                  Sampling Frame
                         1 - $50 - $2,999                  3,320
                         2 - ≥ $3,000                          7
                              Total                        3,327
                                                                                      Page 2 of 2


SAMPLE SIZE

We randomly selected 100 bad debts $50 or greater but less than $3,000. We reviewed all 7 bad
debts that were $3,000 or greater. The total sample size was 107.

                            Stratum                   Sample Items
                        1 - $50 - $2,999                 100
                        2 - ≥ $3,000                        7
                              Total                      107

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the OIG/OAS statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We selected all bad debts that were $3,000 or greater for review. We consecutively numbered
the bad debts that were $50 or greater but less than $3,000 from 1 through 3,320. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the number and dollar value of
unallowable bad debts claimed during fiscal year 2005.
APPENDIX B: SAMPLE RESULTS AND ESTIMATES FOR BAD DEBTS THAT WERE 

         NOT UNCOLLECTIBLE WHEN CLAIMED AS WORTHLESS 


SAMPLE RESULTS



                                                               No. of           Value of
                  Frame    Value of    Sample Value of
  Stratum                                                   Unallowable      Unallowable Bad
                   Size     Frame       Size  Sample
                                                             Bad Debts            Debts


1 - $50 - 2,999   3,320   $1,118,786    100      $35,158         35              $10,274


 2 - ≥ $3,000       7       27,966       7        27,966         3               11,914


   TOTAL          3,327   $1,146,752    107      $63,124         38              $22,188



ESTIMATES

                             Estimated Unallowable Bad Debts
                    Limits Calculated for a 90-Percent Confidence Interval
                                               Estimated       Estimated
                                                Value of         No. of
                          Stratum
                                              Unallowable     Unallowable
                                               Bad Debts       Bad Debts
                  Point Estimate
                    Stratum 1                  $341,088           1162
                    Stratum 2                   11,914                3
                          TOTAL                $353,002           1,165


                  Lower limit                  $176,019              907
                  Upper limit                  $529,983           1423
  APPENDIX C: SAMPLE RESULTS AND ESTIMATES FOR UNALLOWABLE BAD 

       DEBTS RELATED TO ERLANGER MEDICAL CENTER’S ACTIONS 


SAMPLE RESULTS



                                                                     No. of           Value of
                    Frame     Value of    Sample      Value of
   Stratum                                                        Unallowable       Unallowable
                     Size      Frame       Size       Sample
                                                                   Bad Debts         Bad Debts


1 - $50 - $2,999    3,320    $1,118,786     100       $35,158         16              $3,243


 2 - ≥ $3,000         7        27,966        7        27,966           5               8,596


   TOTAL            3,327    $1,146,752     107       $63,124         21              $11,839


ESTIMATES

                                       Overall Estimates
                     Limits Calculated for a 90-Percent Confidence Interval

                                           Estimated Value       Estimated No. of
                                            of Unallowable         Unallowable
                                               Bad Debts            Bad Debts

                Point Estimate
                       Stratum 1                 $107,680              531
                       Stratum 2                  8,596                 5
                         Total                   $116,276              536


                      Lower limit                $49,350               338
                      Upper limit                $183,201              734
                                                                                                Page 1 of3


APPENDIX D: ERLANGER MEDICAL CENTER COMMENTS 



                                                                                                        l
erlanger

 May 10,2010



 By Email via the HHS/OIG Delivery Server

 Peter J. Barbera
 Regional Inspector General for Audit Services
 Office of the Inspector General
 Office of Audit Services, Region IV
 61 Forsyth Street, SW, Suite 3T41
 Atlanta, GA 30303

 RE: 	   Report Nu mber: A-04-09-000S7 - Review of Medicare Part A Bad Debts at
         Erlanger Medical Center for the Fiscal Year Ended lune 30, 2005 and Report
         Number: A-04·09-000058 - Review of Medicare Part B Bad Debts at Erlanger
         Medical Ccnter for Ihe Fiscal Year Ended June ]0, 2005

 Dear Mr. Barbera-

This letter contains comments from Erlanger Medical Center on the March 30, 2010 and
March 3 [, 20 I 0 drafis reports concerning the Office of Inspector General ' s (DIG) audits
of Medicare Parts A and B bad debts for fiscal year ended June 30, 2005. Erlnnger
I-Ieahh System appreciates the briefe)(tension to respond to these reports granted to
Erlanger by Eric Bowen of yOIlT oflil.:l.: as wcll as Ihe oppol"llInilY 10 provide additional
comments 10 be included in the final rep0l1. I undersland Ihal this response will be
summarized in the body of the final report and also be induded in its cntircty as an
appl.:ndi)(.


Genentl Comm ents

With respect to being ab le properly to claim and be reimbursed for Medicare bad debts at
the time when accounts were sent to a collection agency, Erlanger Medical Center is
covcred unde r the statutory Moratorium for Bad Debt Write-orrs ("Moratori um").
Section 4008(c) of the Omnibus Budget Reconciliation Act of 1987 (P.L. 100-203). The
Centers for Medica re and Medicaid Services (eMS), has interpreted that Moratorium as
applying whe n an in termediary was Allowing the provider to write-affhad debts at the
time they were senlla a I.:ollection agency Ilrior to August I, 1987. Under eMS policy, if
an intenncdiary allowed unpaid Medicare accoullts as bad debts prior 10 Augusl I, 1987




         975 E<Js I Third Stree t, Challanooga, TN 37403 (423)778·7000 www.er!.lnger.org
                                                                                                 Page 2 of3




allhe lime when the acco\U1ls were sent 10 a collection agency, Medicare IIIl1st continue
applying that samc principle ill all subsequent years and mllY not di~al1ow Medicare bad
debts solely on the basis that the account was at a collection agency.

The determination that the Moratorium applied to ETlllnger Medical Cenler was made by
its Fiseal lnlennediary (Fl) at lhat lime in 2005, as evidenced by thc allaehcd work papers
from thc FI dated July 15, 2005. (The finding Ihat Erlanger was covered by the
Moratorium with rcspcctlo claiming bad debts whcn an account was senl to a collection
agency was presumably also reached in many prior bad debt audits at Erlanger occurring
aner Mcdicare first applied that policy in 1989.)

l!'respective of tile PI's finding with respect to Erlanger's 2005 Audit, Erlanger would be
entitled to the benefit of the Moratorium under the holding in Foothill Hospital I'. Lcavil/,
Medicare & Medicaid Guide (CCI'I) 302,4)2 (D.D.C., May )0, 2008). That case
involved the samc issuc--the appcaling hospital had claimed bad debts at Ihe time Ihat Ihe
accounts were selll to a col lection agency. In ruling in fAvor of the hospital, the court
stated:

               The original version of the Moratorium states that "the
               Secretary of Health and Human Service~ J'I/allllot /JI(jk~
               wry change in the policy in effect on August I, 1987." 42
               U.S.C. § 139Sf note (emphasis added). 'Ine plain meaning
               of this sentence is that the Secrctary is prohibitcd from
               making IIny changes in the age ncy's bad debt policy as it
               existed as of August I , 1987.

The court then noted that the Medicare policy rt!quiring accounts to be returned from a
collectiotlAgency was no t published until 1989 with a prospectivc cffective date.
Accordingly, Ihe COU lt concluded thaI an individual provider did nol havc to prove what
an intermediary had allowed for it whcn it was plain that the agency's national policy in
place prior to August I , 1987 d id not bar allowing an unpaid Medicare account as a bad
deblAt the lime that the account WIIS scnt to II collection agency. If C MS bel ieves that the
FOOThill case WAS wrongly decided, it had a right to appcalto thc D.C. Circuit. CMS,
however, opted nol to appeal the Foo/hlll decision, and thus, that decision stands as
precedent in for the fedeml district COUll for Washington, D.C. Any provider can seek
judicial review ofCMS decisions in Washington, D.C., 42 U.S.C. § 1]9500 (0.
Accordingly, the precedent in the Foo/hill case applies to ErlAnger.

Based both on the Fl's conclusion tll!lllhe Moratorium applies to Erlanger because of
what Medicare allowed a\ Erlanger prior to August I, t987, and the court's decision in
the Foo/hill case, DIG' s conclusion that Erlanger's claim of unpaid Medicare accounts at
the time that the accounts were rcferred to Acollectiollagcncy was unallowable in any
year is erroneous and should be eliminated from the report.




                                              2
                                                                                              Page 3 of3




Re s po nse to RCC () lII m e ndatiO IiS

• 	 Erl,mger will request a reopening for the FY2005 cost to reduce and refund those
    errors identified in thc audit relatcd to non·covercd services mistakenly claimed as
    allowable bad debts and also those bad debts determined dllring the audit to have
    inadequate documentation to support the indigcnce determinations. The
    overpayments relatcd to the Part A report total $38,495. The overpayments related to
    the Part B report total $34,545.

• 	 Erlanger will also rcview its FY2008 cost rep0l1 and ensure compliance with the laws
    and regulations governing Mcdicare bad debt policy and will also take steps to avoid
    including claims for bad debts on 110ncovercd services or other nonallowable bad
    debts in future Medicare cost reports.


If you have any questions regarding this response, please feel free to contact me directly.


Respectfully,




Alana Sullivan
ChiefCompiirmce Officer
Erlanger Health System



Attachment




                                            J
